         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA Has Improved
       Five-Year Review Process
       for Superfund Remedies,
       But Further Steps Needed

       Report No. 2007-P-00006

       December 5, 2006
Report Contributors:     Carolyn Copper
                         Angela Bennett
                         Jennifer Dwyer
                         Andrew Lavenburg
                         Madeline Mullen
                         Michael Owen




Abbreviations

CERCLA      Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS     Comprehensive Environmental Response, Compensation, and Liability
            Information System
EPA         U.S. Environmental Protection Agency
OIG         Office of Inspector General
OSWER       Office of Solid Waste and Emergency Response
SARA        Superfund Amendments and Reauthorization Act
                       U.S. Environmental Protection Agency                                              2007-P-00006

                                                                                                      December 5, 2006

                       Office of Inspector General


                       At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review              EPA Has Improved Five-Year Review Process for 

                                    Superfund Remedies, But Further Steps Needed 

Prior studies have identified
weaknesses in the Superfund
five-year review process.            What We Found
We evaluated whether the U.S.
Environmental Protection            Since our last review in 1999, EPA has taken actions to improve the five-year
Agency (EPA) has improved           review process. These actions included issuing the Comprehensive Five-Year
the quality, completeness, and      Review Guidance, providing training, and reducing the review backlog. While
timeliness of five-year reviews,    these actions have resulted in improvements, EPA needs to take additional steps
and what impact the review          to better support and communicate conclusions, continue to improve review
process has had on remedies at      timeliness, and provide fuller assurance that cleanup actions are protective of
Superfund sites.                    human health and the environment.

                                    While we did not conclude that remedies were unsuccessful at achieving
Background                          protection of human health and the environment, our evaluation of a random
                                    sample of 39 five-year review reports issued between Fiscal Years 2002 and 2004
EPA’s Superfund five-year           showed that:
review process examines the
remedies at hundreds of              •	 21 percent did not fully support their protectiveness conclusions
Superfund sites where
                                     •	 21 percent did not provide complete protectiveness conclusions
hazardous substances remain at
                                     •	 21 percent did not have sufficient information to implement 

levels that potentially pose an
                                        recommendations 

unacceptable risk. The purpose
of the reviews is to determine       •	 23 percent did not meet public notification requirements
whether remedies are, or will
be, protective of human health      EPA has not assessed the overall impact of its five-year review process on
and the environment.                implementing and performing remedies because a system to provide complete
                                    information on the results of reviews had not been implemented.

                                     What We Recommend

                                    We recommend that EPA expand the scope of quality assurance reviews of five-
                                    year review reports, and revise guidance to more clearly define short- and long-
For further information, contact    term protectiveness determinations. To improve timeliness, we recommend that
our Office of Congressional and     EPA evaluate the regions’ workloads and available resources for five-year
Public Liaison at (202) 566-2391.   reviews for meeting due dates. We also recommend that EPA use data in a new
To view the full report,            information system module to measure the effectiveness and impacts of five-year
click on the following link:        reviews. EPA generally concurred with our recommendations. The Agency will
www.epa.gov/oig/reports/2007/       need to provide further details on its plans to address Office of Inspector General
20061205-2007-P-00006.pdf           recommendations within 90 days.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL



                                        December 5, 2006

MEMORANDUM

SUBJECT:               EPA Has Improved Five-Year Review Process for Superfund Remedies,
                       But Further Steps Needed
                       Report No. 2007-P-00006

TO:                    Susan Parker Bodine
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $530,299.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at (202) 566-0847 or
roderick.bill@epa.gov; or Carolyn Copper, Director for Program Evaluation, Hazardous Waste
Issues, at (202) 566-0829 or copper.carolyn@epa.gov.


                                                     Sincerely,



                                                     Bill A. Roderick
                                                     Acting Inspector General
            EPA Has Improved Five-Year Review Process for Superfund Remedies, 

                                But Further Steps Needed





                                 Table of Contents 


Chapters
 1	   Introduction ...........................................................................................................      1


              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1         

              Prior Evaluations and Agency’s Actions .........................................................                      2

              Scope and Methodology.................................................................................                3


 2	   EPA Needs to Further Improve the Quality and 

      Completeness of Reviews ....................................................................................                  5


              Actions Taken to Improve Five-Year Reviews................................................                            5

              Five-Year Review Reports Need Further Improvements................................                                    6

              Supporting Documentation Not Maintained....................................................                           8

              Primary Causes for Quality and Completeness Problems Noted...................                                         9

              Conclusion......................................................................................................     10 

              Recommendations .........................................................................................            10 

              Agency Comments and OIG Evaluation.........................................................                          11 


 3	   Progress Made in Completing Reviews Timely

      But Further Improvement Needed .......................................................................                       12 


              EPA’s Annual Planning Processes Generally Successful ..............................                                  12 

              Majority of Reviews Conducted Timely, But Further Actions Needed ............                                        13 

              Limited Resources and No Tracking Systems Caused Delays ......................                                       14 

              Conclusion......................................................................................................     15         

              Recommendations .........................................................................................            15         

              Agency Comments and OIG Evaluation.........................................................                          16 


 4	   Reviews Provide an Effective Oversight Mechanism, 

      But More Data Needed ..........................................................................................              17     


              Five-Year Reviews Identify Protectiveness Issues.........................................                            17 

              EPA Has Not Evaluated Overall Impacts of Five-Year Reviews ....................                                      18 

              Recommendations .........................................................................................            19         

              Agency Comments and OIG Evaluation.........................................................                          19 


 Status of Recommendations and Potential Monetary Benefits.................................                                        20     




                                                      - continued -
           EPA Has Improved Five-Year Review Process for Superfund Remedies, 

                               But Further Steps Needed





Appendices
 A   Details on Scope and Methodology.....................................................................                      22   


 B   Details on Reports without Fully Supported or Complete 

     Protectiveness Conclusions ................................................................................                25   


 C   Agency Response to Draft Report ......................................................................                     29   


 D   OIG Evaluation of Agency Response .................................................................                        40   


 E   Distribution ...........................................................................................................   44   

                                Chapter 1
                                 Introduction

Purpose
          This report focuses on the U.S. Environmental Protection Agency’s (EPA’s) five-
          year review activities for Superfund sites. Overall, we sought to determine how
          successful the five-year review process has been at assuring that remedies at
          Superfund sites are protective of human health and the environment. We
          addressed three questions:

             •	 How successful has EPA been at improving the quality and completeness
                of five-year reviews?

             •	 How does EPA identify sites requiring five-year reviews and ensure that
                the reviews are conducted timely?

             •	 What impact has EPA’s five-year review process had on the
                implementation and performance of remedial actions at Superfund sites?

Background
          About 11 million people in the United States, including 3 to 4 million children,
          live within 1 mile of a Superfund site. Section 121(c) of the Comprehensive
          Environmental Response, Compensation, and Liability Act (CERCLA), as
          amended by the Superfund Amendments and Reauthorization Act (SARA) of
          1986, requires EPA to review the remedies at Superfund sites where hazardous
          substances, pollutants, or contaminants will remain onsite. These reviews are
          required to be conducted every five years. The purpose of five-year reviews is to
          evaluate the implementation and performance of remedies and determine whether
          remedies are, or will be, protective of human health and the environment. When a
          five-year review identifies problems or deficiencies with a remedy, EPA should
          ensure appropriate corrective actions are taken.

          EPA uses two types of five-year reviews: statutory and policy. Statutory reviews
          are required by CERCLA. These reviews are for sites where post-SARA
          remedial actions leave hazardous substances, pollutants, or contaminants on site.
          The initial trigger date for statutory reviews is the initiation of the first remedial
          action leaving contaminants on site. Policy reviews are not required under
          CERCLA, but are performed as a matter of EPA policy. These reviews are
          triggered by the date that remedial action construction is completed at a site.
          Policy reviews are required for sites where a: (1) pre-SARA remedial action


                                             1

          leaves hazardous substances, pollutants, or contaminants onsite; or (2) pre- or
          post-SARA remedial action will allow for unlimited use and unrestricted
          exposure, but requires five years or more to complete. Policy reviews are also
          performed for removal-only National Priority List sites where hazardous
          substances, pollutants, or contaminants were left onsite at levels that do not permit
          unlimited use and unrestricted exposure. Both statutory and policy reviews
          should be completed within five years of their trigger dates, with subsequent five-
          year reviews completed five years after the prior review is issued.

          The five-year review process is the same for both types of reviews. The process
          is based on information obtained from decision documents, operational data, and
          input of those responsible for and affected by the actions at the site. The process
          includes several components, such as:

             •	 Community involvement and notification: Issue public notices
                announcing the initiation and completion of the five-year review, and
                provide results of the review in a local site repository.
             •	 Document review: Gather and review all relevant documents, data, and
                other information in support of the five-year review.
             •	 Site inspection: Conduct a site inspection to visually confirm and
                document the conditions of the remedy and the site.
             •	 Interviews: Gather additional information about the site through
                interviews with site personnel, regulatory authorities, local officials,
                and/or community action groups.
             •	 Data review and evaluation: Review and analyze the data collected as
                part of a technical assessment of the remedy and the site.
             •	 Protectiveness statements: Based on the technical assessment, make a
                determination as to whether the remedy is protective of human health and
                the environment.

          EPA regions generally conduct the five-year reviews, but they may also be
          conducted by States, Federal facilities, the U.S. Army Corps of Engineers, or a
          contractor. In all cases, the components identified above are used to evaluate the
          performance and protectiveness of the remedy.

Prior Evaluations and Agency’s Actions
          Prior reports by the EPA Office of Inspector General (OIG) and Resources for the
          Future, a non-profit independent research organization, have identified
          weaknesses in EPA’s five-year review process. Specifically:

             •	 EPA OIG Report No. 5100229, Backlog Warrants Higher Priority for
                Five-Year Reviews, March 24, 1995: This report disclosed that only
                30 percent of the required five-year reviews were completed as of 1994,
                and predicted that the backlog would increase for Fiscal Years 1995
                through 1997.


                                            2

             •	 EPA OIG Report No. 1999-P-219, Backlog of Five-Year Review
                Reports Increased Nearly Threefold, September 30, 1999: This
                followup report concluded that: (a) the backlog of overdue reviews
                significantly increased since 1995, (b) 28 percent of five-year review
                reports evaluated did not include a conclusion on protectiveness of
                remedies or did not adequately support conclusions, (c) 50 percent of the
                reports reviewed with recommendations did not include sufficient
                information for the recommended actions, and (d) 63 percent of the reports
                were issued late.

             •	 Resources for the Future, in the publication Superfund’s Future, What
                Will It Cost, issued in 2001: This publication indicated that 32 percent of
                the 151 five-year review reports reviewed had protectiveness statements
                that were insufficiently substantiated or were questionable.

         In response to the findings and recommendations in these reports, EPA in 2001
         developed three initiatives to improve the management of its Five-Year Review
         program and the quality of five-year review reports. Table 1.1 summarizes these
         initiatives.

         Table 1-1. EPA’s Five-Year Review Initiatives

                    Initiative                                   Major Actions
          Improve the Quality and          •       Complete and implement the Comprehensive
          Consistency of Reports                   Five-Year Review Guidance.
                                           •       Develop and provide five-year review training
                                                   to EPA staff in the regions and others involved
                                                   with the reviews.
                                           •       Conduct quality reviews of selected five-year
                                                   review reports prepared by each EPA region.
                                           •       Clarify and reaffirm protectiveness statements
                                                   for reports questioned by Resources for the
                                                   Future.
                                           •       Track corrective actions and recommendations
                                                   in five-year review reports.
          Provide Public Access to         •       Make completed five-year review reports
          Reports                                  available to the general public through the
                                                   EPA regions’ Internet Web pages.
          Eliminate Backlog and            •       Ensure the Agency does not continue to add to
          Ensure Timely Completion                 the backlog, and clear the backlog by the end
          of Overdue Reports                       of Fiscal Year 2002.
         Source: Office of Solid Waste and Emergency Response Memorandum on Five-Year Review
         Program Initiatives, August 27, 2002


Scope and Methodology
         We conducted our evaluation from November 2004 to May 2006. We performed
         our evaluation in accordance with Government Auditing Standards, issued by the


                                               3
                  Comptroller General of the United States. We considered the findings of prior
                  EPA OIG reports and a Resources for the Future publication related to EPA’s
                  Five-Year Review program.

                  To evaluate the Agency’s Five-Year Review program, we interviewed managers
                  and program staff from the EPA Office of Solid Waste and Emergency Response
                  (OSWER) and from 5 of EPA’s 10 regions. We also reviewed a random sample
                  of 39 of 555 five-year review reports issued during Fiscal Years 2002 through
                  2004. Our sample of 39 reports included at least 1 report from each of EPA’s 10
                  regions. Further, we reviewed key documents and data supporting information
                  presented in 28 of the reports in our sample (representing the 5 regions where we
                  also conducted interviews), including Records of Decision, site sampling results,
                  and site inspection records.1

                  Appendix A provides further details on our scope and methodology.




1
 Due to time and resource constraints, we could not visit all 10 regions and conduct detailed site file analyses for
each of the 39 sites in our sample. Therefore, we selected 28 five-year review reports from our sample covering
Regions 2, 3, 4, 5, and 9. Reports from these five regions were selected primarily because we sought to obtain
geographical coverage for the eastern, central, and western sections of the nation.


                                                           4

                                            Chapter 2
         EPA Needs to Further Improve the Quality and
                 Completeness of Reviews

                 While EPA has taken actions to address quality and completeness issues
                 identified in prior evaluations of the Agency’s five-year review activities, further
                 improvement is needed. An analysis of a random sample of 39 completed five-
                 year review reports showed the following:

                 Table 2-1. Issues Regarding Reports
                                                       Issue                                             Percent
                   Protectiveness conclusions not fully supported                                         21%
                   Protectiveness conclusions incomplete                                                  21%
                   Information to implement recommended corrective actions insufficient                   21%
                   Reviews did not meet public notification requirements                                  23%
                 Source: EPA OIG analysis of five-year review reports

                 Further, 79 percent of the 28 reports examined for documentation did not have
                 complete documentation for at least one of three supporting activities: public
                 notices, interviews, or site inspections. The issues noted primarily occurred
                 because EPA did not establish effective quality assurance processes, sufficient
                 definitions for short- and long-term protectiveness conclusions, effective public
                 notification procedures, and specific documentation requirements. We did not
                 conclude that Superfund remedies may be unsuccessful at achieving intended
                 protectiveness results. However, without complete and fully supported report
                 information, EPA has less assurance that remedies at Superfund sites protect
                 human health and the environment. EPA also has inadequate assurance that
                 Congress and the public are accurately informed on the status of remedial
                 actions.2

Actions Taken to Improve Five-Year Reviews
                 Since 2001, EPA has taken several actions under its initiative Improve the Quality
                 and Consistency of Reports to address issues identified by the EPA OIG and
                 Resources for the Future. Specifically:



2
  Five-year reviews are required, under Section 121 of CERCLA, to assure that human health and the environment
are being protected by the remedial action being implemented. The Act requires that Congress be notified of the
results of all such reviews, and any actions taken as a result of such reviews. Additionally, as part of its 2001
initiatives to improve the five-year review program, EPA committed to making five-year review results available to
the public via the Internet.


                                                        5

            •	 Guidance: OSWER developed and implemented the Comprehensive
               Five-Year Review Guidance during Fiscal Year 2001. This document
               supersedes prior EPA guidance for five-year reviews, and is designed to
               clarify EPA’s policy, facilitate consistency across regions, and note roles
               and responsibilities.

            •	 Training: OSWER conducted training covering the major components of
               the Comprehensive Five-Year Review Guidance during Fiscal Years 2001
               and 2002. According to OSWER program staff, more than 300 remedial
               project managers in EPA regions received the training.

            •	 Reevaluations: The regions reevaluated the 48 five-year review reports
               identified by Resources for the Future as not having clearly supported
               protectiveness statements during Fiscal Year 2002. Based on the regions’
               reevaluations, OSWER concluded no exposure issues existed at the sites.

            •	 Quality Assurance Reviews: OSWER has conducted quality assurance
               reviews of selected draft five-year reviews since Fiscal Year 2002 to help
               the regions meet guidelines outlined in the Comprehensive Five-Year
               Review Guidance.

Five-Year Review Reports Need Further Improvements
         Although EPA has taken several actions since 2001 to improve the quality and
         consistency of five-year reviews, further improvement is needed. We did not
         conclude that the remedies at the sites we reviewed may be unsuccessful at
         achieving intended protectiveness results. However, our review of a random
         sample of 39 five-year review reports issued between Fiscal Years 2002 and 2004
         showed various issues, as discussed below.

         Reviews Contained Unsupported Protectiveness Conclusions

         Eight of the reports reviewed, or 21 percent, had remedy protectiveness
         conclusions that were not fully supported. EPA’s Comprehensive Five-Year
         Review Guidance states that “the [five-year review] report should contain the data
         and information necessary to support all findings and conclusions.” See
         Appendix B for details on reports with unsupported protectiveness conclusions.
         Examples of insufficient support follow:

            •	 In one report, the information appeared to contradict the conclusion. The
               report stated that the remedy was implemented in accordance with the
               Record of Decision and remained “fully protective of human health and
               the environment.” However, the report also stated “…the current off-site
               extent of the contaminants is unknown. As such, the protectiveness of the
               ground water remedies is unknown… There is an urgent need for the
               evaluation of current ground water concentrations off-site….”


                                          6

   •	 The technical assessment in another report did not address all of the
      elements of the evaluation framework prescribed by the Comprehensive
      Five-Year Review Guidance. The technical assessment did not provide
      sampling data and other specific information to support the evaluation and
      protectiveness conclusions. Further, the Document Review section of the
      report did not cite any monitoring/sampling reports that covered the
      review period.

   •	 A third report disclosed that the erosion of an earthen dam at the site was a
      “serious issue that would potentially undermine the stability of the
      recovery well… and ultimately the dam itself.” The report identified this
      issue as impacting both the current and future protectiveness of the
      remedy. However, the report concluded the remedy was protective of
      human health and the environment and did not mention the dam stability
      issue in the protectiveness statement.

Reviews Contained Incomplete Protectiveness Conclusions

An additional eight reports reviewed, or 21 percent, did not contain all required
elements for protectiveness conclusions. We found these protectiveness
conclusions to be incomplete because they either did not cover all operable units
at the sites (five reports) or did not address short- and long-term protectiveness
(three reports). This condition existed for reports from 4 of the 10 regions.
According to the Comprehensive Five-Year Review Guidance, a protectiveness
statement should be developed for each operable unit at which a remedial action
has been initiated. OSWER managers also specified that protectiveness
statements should address both short- and long-term protectiveness.

Further Improvement Needed with Recommended Corrective Actions

Eight of the reports reviewed, or 21 percent, did not contain sufficient information
to implement the recommended corrective actions, or did not provide
recommendations to correct remedy deficiencies. While this is an improvement
from OIG’s 1999 report, which showed that 50 percent of the reports with
recommendations lacked sufficient information to implement the recommended
actions, further improvement is needed.

Six of the reports in our sample contained one or more recommendations that did
not identify milestone dates, the responsible party for implementation, and/or the
responsible oversight agency. This information is required by the Comprehensive
Five-Year Review Guidance and is critical to ensuring recommendations are
timely and effectively implemented. In one example, a report identified that the
site was not achieving compliance standards in specific wells, and that the ground
water gradient was not responding to specific measures taken to control the
gradient. Followup actions were recommended for these issues, but the report did



                                 7

         not identify a responsible party, oversight agency, milestone dates, and the impact
         on current and future protectiveness.

         The other two reports did not include recommendations to address all issues that
         had a potential impact on the protectiveness of the remedy. For example, one of
         the reports disclosed that ground water system evaluation reports indicated that
         wells outside the remediation system were showing some degree of contamination
         and “the remedy [was] not functioning exactly as intended.” However, the report
         did not include a recommendation to address this issue.

         Public Notification Requirements Not Met

         Nine of the reports reviewed, or 23 percent, consisted of reviews that did not meet
         public notification requirements. In four reports, EPA or the appropriate five-year
         review lead agency did not provide public notifications of the commencement and
         completion of the evaluations. The other five reports were based on reviews
         where the applicable lead agency did not issue a public notice for the
         commencement of the review. The Comprehensive Five-Year Review Guidance
         requires that public notices be issued before and after each review. These notices
         are important for informing the public about the five-year review process,
         obtaining public participation, and disclosing the results of the review.

Supporting Documentation Not Maintained
         In addition to reviewing reports themselves, we reviewed documentation for 28 of
         the reports in our random sample. For 22 of those reports, or 79 percent, we
         found that the supporting documentation was not prepared and/or maintained by
         the regions for one or more major five-year review components:

            •   Public notification details (25 percent of reports)
            •   Details on interview with officials or others (32 percent of reports)
            •   Site inspection details (64 percent of reports)

         As a result, we could not verify public notice, interview, and site inspection
         details in the reports. While technical data (sampling reports, monitoring plans,
         and operation and maintenance documentation) are the primary basis for the
         technical assessment and protectiveness determinations, these other major review
         activities help ensure that the review is based on complete information.

         The Comprehensive Five-Year Review Guidance provides examples for
         conducting and documenting interviews and site inspections. The guidance also
         specifies that the regions “…should establish appropriate record keeping
         procedures to minimize efforts needed to gather all necessary documents for
         subsequent five-year reviews.” Therefore, maintaining documentation for five-
         year review supporting information should streamline the process for future
         reviews, especially in instances where there has been a change in remedial project


                                          8

         managers. Also, regional managers, independent reviewers, and the public cannot
         verify important details in the reports without supporting documents.
         Documentation supporting the details of the major components of the five-year
         review is critical to ensuring the quality and completeness of the reviews.

Primary Causes for Quality and Completeness Problems Noted
         Although OSWER and the five regions included in our sample have quality
         assurance processes for five-year reviews, their processes have not been effective
         in ensuring the reviews met the Comprehensive Five-Year Review Guidance.
         OSWER has conducted quality assurance reviews on selected reports since Fiscal
         Year 2002; however, the reviews since Fiscal Year 2003 generally have been
         limited to regional requests. Our discussions with program managers and staff
         from the five regions identified that one region conducted quality assurance
         reviews on selected five-year review reports and the other four regions conducted
         reviews on all reports. We were unable to evaluate the scope and depth of the
         Agency’s quality assurance reviews because the reviews were generally not
         documented. However, the quality and completeness issues we identified show
         that the Agency’s quality assurance activities have not been effective. Therefore,
         OSWER needs to perform quality assurance reviews on a higher percentage of
         five-year review reports and the regions need to conduct more comprehensive
         quality assurance reviews.

         The primary cause for incomplete protectiveness statements in five-year review
         reports was that some region personnel believed having such determinations for
         each operational unit at a site was confusing and potentially redundant. While
         there may be similar protectiveness conclusions for different operational units at a
         site, the Comprehensive Five-Year Review Guidance clearly requires that separate
         protectiveness statements be made for each operational unit at a site. Also, the
         guidance does not sufficiently define short- and long-term protectiveness
         determinations, which created inconsistencies in conclusions across regions.

         Regarding lack of public notifications, the regions had not established procedures
         to ensure that the notifications were issued. For example, in one region, remedial
         project managers did not always coordinate their reviews with the community
         involvement coordinator responsible for issuing public notifications.

         The Comprehensive Five-Year Review Guidance does not include specific
         documentation requirements for five-year reviews. As a result, we found that the
         regions did not always ensure that public notices were included in site files. Also,
         some regions did not always consider interview and site inspection documentation
         to be necessary when they were highly involved at the sites.




                                          9

Conclusion
         The purpose of five-year reviews is to evaluate implementation and performance
         of Superfund remedies and to establish appropriate corrective actions when
         problems with remedies are identified. Corrective action recommendations in
         five-year review reports have substantially improved since 1999 when our last
         report was issued. However, EPA needs to take additional actions to improve the
         overall quality and completeness of information and conclusions in five-year
         reports. While we did not conclude that these problems prevented remedies from
         achieving intended protectiveness results, the problems undermine assurances that
         remedies protect human health and the environment, and that Congress and the
         public are being accurately informed on the protectiveness status of remedial
         actions.

Recommendations

         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         2-1	   Expand the Agency’s scope of the quality assurance reviews conducted
                under the initiative Improve the Quality and Consistency of Five-Year
                Review Reports. At a minimum, conduct quality assurance reviews for a
                representative sample of reports from each region.

         2-2	   Revise the Comprehensive Five-Year Review Guidance to more clearly
                define short- and long-term protectiveness determinations. Also, revise
                the guidance to include specific requirements for conducting and
                documenting quality assurance reviews of five-year review reports, and
                maintain documentation to support the information in the reports. These
                requirements should emphasize the need for:

                a) Report information that provides complete support for conclusions on
                   remedy protectiveness.
                b) Complete information supporting recommendations, including
                   milestones, oversight agency, and responsible party.
                c) Documentation supporting report information and quality assurance
                   results.
                d) Regional quality assurance programs for five-year reviews that ensure
                   the reviews are complete and fully supported, including site
                   inspections.

         2-3	   Communicate to the regions the need for: (a) public notifications for the
                commencement and completion of five-year reviews; and (b)
                protectiveness conclusions that address each operable unit at a site.




                                         10 

Agency Comments and OIG Evaluation

         EPA agreed with Recommendations 2-1 and 2-3 and responded that increased
         review by Headquarters improves the quality and consistency of reports. The
         Agency did not agree with Recommendation 2-2, but described several efforts
         currently underway that appear to generally meet the intent of the
         recommendation. In its comments on Recommendation 2-2, the Agency said that
         interviews are not required by the Comprehensive Five-Year Review Guidance
         and are only one of many community involvement activities to solicit feedback on
         the remedies being reviewed. We agree with the Agency’s comment on
         interviews and made appropriate modifications to the chapter and
         recommendation. Although the Agency described corrective actions taken and
         planned to address the recommendations, it will need to provide more specific
         details on these actions for Recommendations 2-1 and 2-2, as well as specific
         milestones for completing corrective actions for all three recommendations,
         within 90 days.

         The Agency also provided comments on our findings for some five-year reviews
         discussed in Chapter 2 and Appendix B of the report. We made changes based on
         these comments as appropriate.

         The Agency’s complete written response is in Appendix C. Our evaluation of
         those comments is in Appendix D.




                                        11 

                               Chapter 3
    Progress Made in Completing Reviews Timely
          But Further Improvement Needed

          EPA identified sites subject to five-year reviews through an annual planning
          process and successfully addressed a backlog of overdue five-year reviews. EPA
          has also improved the timeliness of five-year reviews, with 67 percent of the
          39 reports in our sample being issued on time. However, further actions are
          needed to ensure all reviews are completed within five years of their trigger date
          and recommended corrective actions implemented by due dates. The untimely
          reviews were primarily attributable to large workloads and turnover of remedial
          project managers. Late implementation of recommendations was primarily
          caused by the absence of formal tracking systems in the regions. The late reviews
          and implementing of recommendations resulted in delayed corrective actions that
          potentially impacted the protectiveness of some remedies. Also, EPA did not
          always timely inform affected residents and Congress on the effectiveness of
          remedies.

EPA’s Annual Planning Processes Generally Successful
          OSWER and the regions identified sites subject to five-year reviews and
          extramural funding requirements through an annual planning process. This
          process includes review of EPA’s Comprehensive Environmental Response,
          Compensation, and Liability Information System (CERCLIS) by the regions and
          OSWER to identify sites subject to review and their due dates. OSWER discusses
          and confirms each region’s review workload and necessary extramural funding
          requirements to support the workload for the year through planning meetings.

          Our comparison of five-year review tracking information maintained by the five
          regions we visited with five-year review data in CERCLIS for Fiscal Years 2002
          through 2004 indicated that EPA’s process to identify sites subject to five-year
          review is generally effective. With few exceptions, the review information
          maintained by the regions matched that in CERCLIS. The most significant
          exception was that one region’s tracking information did not include six Federal
          facility sites subject to the five-year review requirement, and although these
          reviews were omitted from the region’s tracking information they were still
          completed on time.

          Also, since 1999, EPA has been successful in reducing its backlog of overdue
          five-year reviews. Our 1999 evaluation identified a backlog of 143 reviews
          overdue by an average of 17 months. This backlog represented 40 percent of the
          reviews planned for completion through March 1999. As of the end of Fiscal
          Year 2004, CERCLIS showed a backlog of overdue five-year reviews for 14 sites,


                                          12 

          representing only 2.5 percent of the five-year reviews planned for completion
          between Fiscal Years 2002 and 2004 (see Table 3.1).

          Table 3-1. Uncompleted Five-Year Reviews for Fiscal Years 2002 through 2004
                                                    Number of Reviews      Percent of Reviews
                         Number of Planned           Not Completed by      Not Completed by
            Region       Reviews 2002-2004             End of 2004            End of 2004
              1                 50                          0                      0%
              2                 70                          1                      1%
              3                 75                          4                      5%
              4                 65                          6                      9%
              5                115                          0                      0%
              6                 34                          0                      0%
              7                 36                          1                      3%
              8                 20                          1                      5%
              9                 43                          1                      2%
              10                47                          0                      0%
             Total             555                         14                    2.5%
          Source: EPA OIG analysis of data provided by OSWER


Majority of Reviews Conducted Timely, But Further Actions Needed
          EPA also improved the timeliness of five-year reviews, with over two-thirds of the
          reports in our random sample being issued on time. However, further actions are
          still needed to ensure all reviews are completed within five-years of their trigger
          date and recommended corrective actions implemented by established dues dates.

          Our 1999 evaluation report disclosed that 63 percent of the 356 five-year review
          reports issued since the inception of the five-year review program were issued late
          by an average of 17 months. EPA has significantly improved its timeliness since
          then. Our random sample of 39 reports issued between Fiscal Years 2002 and
          2004 showed that 67 percent of the reviews were completed on time and 5 of the
          10 regions completed all reports in the sample timely. The sample also showed
          that the late reports were overdue by an average of 12 months (see Table 3.2).

          Table 3-2. Timeliness of Five-Year Review Reports
                        Reviews in         Number of             Range of Overdue
           Region       Our Sample        Late Reviews           Reports (months)
              1              2                  0                       0
              2              7                  4                     6 – 25
              3              7                  0                       0
              4              6                  2                     7 – 11
              5              6                  0                       0
              6              2                  2                    12 – 27
              7              4                  3                     9 – 12
              8              2                  2                     8 – 60
              9              2                  0                       0
             10              1                  0                       0
            Total           39              13 (33%)                  6 – 60
          Source: EPA OIG analysis of five-year review reports




                                               13
         While reducing the number of untimely reports from 63 percent to 33 percent is a
         significant accomplishment, further improvement is needed. One review in our
         sample appeared to miss an entire five-year review cycle, and was completed
         approximately five years past its due date (we did not include this review in our
         calculation of average time overdue because we considered it an extreme case).
         The other 12 late reviews in the sample were completed an average of 12 months
         past their due date. The overdue reports contained 42 recommended followup
         actions that address remedy protectiveness and other site-related issues identified
         during the five-year reviews.

         We noted in our evaluation of the recommendations in 28 of the reports in the
         sample that for 43 percent of them, one or more of the recommended corrective
         actions were not implemented by established due dates. In 25 percent of the
         sample, implementation due dates were missed for recommendations addressing
         current or future remedy protectiveness issues.

Limited Resources and No Tracking Systems Caused Delays
         Discussions with program staff from two of the five regions with untimely reports
         disclosed that the primary contributors to the delays were large Superfund site
         workloads for the remedial project managers and a turnover of those managers for
         some of the sites. OSWER managers told us that some regions, particularly those
         that conduct most five-year reviews using regional staff, view a shortage of staff
         resources as a significant issue. According to the OSWER managers, extramural
         funding (such as funding for work performed under contracts, grants, or
         interagency agreements) for five-year reviews is sufficient and available for all
         regions. In fact, some regions receive extramural funding to hire the U.S. Army
         Corps of Engineers to assist with their five-year workload. However, the majority
         of regions have not chosen to use the extramural funding for five-year review
         commitments.

         Also, planned completion dates for some five-year reviews in CERCLIS were not
         accurate and may have contributed to delays. For five untimely reviews in our
         sample, CERCLIS showed planned due dates different than those in five-year
         reviews reports. CERCLIS identified some reviews as completed timely when
         they were actually up to two years overdue. An OSWER staff member indicated
         this discrepancy occurred because the data for many reviews were entered into
         CERCLIS retroactively. According to this staff member, all planned and actual
         completion dates for upcoming five-year reviews will be accurate, and OSWER
         expects the new CERCLIS 3 Module to correctly reflect all trigger dates and due
         dates for five-year reviews. The staff member said OSWER plans to fully
         implement the module during Fiscal Year 2006, and it will provide for each site:

         •   Planned and actual due dates for five-year reviews
         •   Protectiveness determinations
         •   Descriptions of issues and recommended corrective actions


                                          14 

         •     Implementation status of recommendations

         We also found that the five regions in our sample did not have formal tracking
         systems for ensuring recommended corrective actions were implemented by
         specified milestones. Instead, the regions generally relied on the remedial project
         managers to track and resolve recommended corrective actions. As a result, there
         was not central regional visibility or awareness of the status of recommended
         corrective actions and the effectiveness of those actions in addressing issues
         identified by the five-year reviews.

Conclusion
         EPA has made substantial progress in addressing the backlog of five-year reviews
         and improving the timeliness of reviews since our last report in 1999. However,
         additional improvement is needed to ensure all reviews are completed timely and
         recommended corrective actions are completed by established due dates. The late
         reviews and implementation of recommendations resulted in delayed corrective
         actions. OSWER should evaluate the regions’ workloads and available resources
         for conducting five-year reviews through annual planning with the regions.
         Extramural funding should be used to obtain additional resources for conducting
         five-year reviews where insufficient EPA staffing will delay completion of
         reviews. The new CERCLIS 3 Module, once tested and fully implemented,
         should assist the Agency with tracking and followup of five-year review
         activities, including implementation of recommendations.

Recommendations

         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         3-1      To assess discrepancies or gaps in resources, evaluate annual five-year
                  review workloads and available resources as part of the annual planning
                  process with the regions. Communicate to the regions that the U.S. Army
                  Corps of Engineers or other contractor sources should be used for reviews
                  where insufficient staffing or changes in remedial project managers will
                  delay completion.

         3-2      Work with region officials to correctly identify five-year review due dates
                  and enter these dates into the new CERCLIS 3 Module.

         3-3      After testing and validation of the CERCLIS 3 Module, monitor the status
                  of five-year reviews and the recommended corrective actions established
                  by completed reviews using the module and ensure they are completed by
                  specified due dates.




                                           15 

Agency Comments and OIG Evaluation
         EPA generally agreed with our recommendations. Although the Agency
         described corrective actions taken or planned to address the recommendations, it
         will need to provide more specific details on these actions as well as specific
         milestones for completing corrective actions for the recommendations within
         90 days.

         With regard to Recommendation 3-1, the Agency commented that discussions on
         five-year review workloads and resources have been included in the annual
         planning process with the regions for the last few years and priority funding is
         provided to five-year reviews to ensure they are completed on time. We agree
         with the Agency’s comment. However, we found that the Agency’s current
         planning process has not been completely effective in assuring that sufficient
         resources are allocated to five-year reviews. Therefore, EPA will need to more
         effectively evaluate the regions’ five-year review workloads and resource
         requirements during the planning process.

         The Agency said in response to Recommendation 3-2 that it has aggressively
         undertaken a data quality effort to ensure CERCLIS 3 reflects correct due dates
         for all planned five-year reviews. Regarding Recommendation 3-3, the Agency
         said that the need to promptly input five-year review report issues and
         recommendations into CERCLIS 3 was discussed with the regions and that
         regional branch chiefs agreed to review and verify progress for recommendations
         that affect protectiveness at least twice a year. We are encouraged by the
         Agency’s comments on Recommendations 3-2 and 3-3. However, the Agency
         will need to provide more details on its corrective action for Recommendation
         3-2. The Agency’s corrective action for Recommendation 3-3 does not
         completely address the recommendation. Therefore, the Agency will need to
         provide a more comprehensive corrective action or actions for the
         recommendation in the response to the final report.

         The Agency disagreed with a recommendation in our draft report to require
         regions to establish contingency plans that help ensure that five-year reviews meet
         due dates when there are changes in remedial project managers. The Agency said
         that it does not believe the activity is significant enough to require the
         development of a contingency plan. The Agency also said the regions can plan
         for any foreseen transition of project managers. Based on these comments, we
         removed the recommendation from the report and modified Recommendation 3-1
         to include consideration of remedial project manager changes as part of the annual
         five-year review planning process with the regions.

         The Agency’s complete written response is in Appendix C. Our evaluation of
         those comments is in Appendix D.




                                         16 

                                Chapter 4
 Reviews Provide an Effective Oversight Mechanism,
              But More Data Needed

          Five-year reviews provide EPA with an effective mechanism to identify and
          address significant issues regarding the protectiveness of remedial actions for
          Superfund sites. However, EPA has not assessed the overall impact of its five-
          year review process on remedies at these sites. The Agency could not complete
          this assessment at the time of our review because a system to provide complete
          information on review results and recommended corrective actions had not been
          implemented. As a result, EPA has been unable to measure the effectiveness of
          its Five-Year Review program at assuring protection of human health and the
          environment. EPA’s new CERCLIS 3 Module, once tested and fully
          implemented, should assist it with evaluating the effectiveness of the program in
          the future.

Five-Year Reviews Identify Protectiveness Issues
          Five-year reviews provide EPA with a mechanism to identify and address
          significant issues that impact the protectiveness of remedial actions at Superfund
          sites. The reviews enable EPA to make recommendations for corrective actions,
          and formally communicate site conditions to Congress and the public.

          Our evaluation of 28 randomly selected five-year review reports showed that nearly
          two-thirds (64 percent) identified issues and provided recommended corrective
          actions at sites. These reports provided a total of 79 recommendations. Thirty of
          these recommendations addressed issues that potentially impacted current or future
          protectiveness of the remedial actions. For example, one report included a
          recommendation to conduct a remedial investigation/feasibility study to identify
          alternatives for a failing remedy. The other 49 recommendations addressed less
          significant issues that did not appear to have an impact on protectiveness.

          In total, 29 recommendations (37 percent) from the 28 reviews we examined had
          been implemented as of September 2005. Many of the corrective actions taken
          addressed important remedy issues at sites. Examples of actions taken included:

             •	 Optimization of ground water extraction systems.
             •	 Approval of alternative remedial actions that may be more efficient or
                cost effective in reducing site contaminants.
             •	 Identification of new contaminants of concern and modification of
                sampling programs.
             •	 Completion of studies to examine new potential exposure pathways.



                                           17 

EPA Has Not Evaluated Overall Impacts of Five-Year Reviews
          Although five-year reviews are an important and required aspect of the Superfund
          program, EPA has not assessed the overall impact of the process on the
          implementation and performance of the remedies at sites. EPA had not done so
          because a system to provide complete information on the results of reviews and
          recommended corrective actions had not been implemented, but is expected to be
          by the end of Fiscal Year 2006.

          An OSWER manager and staff member agreed that five-year reviews were
          important. According to OSWER staff, the five-year review process provides an
          opportunity for reconsidering remedies proposed at similar sites based on failed,
          ineffective, or inefficient remedies identified as a result of five-year reviews.
          They also indicated the process assisted in discovery of new contaminants at some
          sites that otherwise could not or would not have been identified. Region staff
          indicated similar impacts, including the identification of new potential exposure
          pathways, and cited the public visibility of five-year reviews as an incentive for
          responsible parties to take corrective actions and avoid the negative public
          relations.

          The Comprehensive Five-Year Review Guidance establishes an annual reporting
          requirement intended to inform OSWER on national progress of five-year
          reviews. The guidance requires that each EPA region submit a report annually to
          OSWER that identifies key five-year review information and results, including:
          (1) the sites subject to five-year reviews for that fiscal year; (2) a summary of
          issues, recommended corrective actions, implementation schedule, and
          protectiveness determination(s) for each site; and (3) the status of recommended
          corrective actions for sites from previous fiscal years. However, OSWER waived
          the reporting requirement for annual five-year review progress reports from the
          regions until the Agency’s new CERCLIS 3 Module is fully implemented.
          According to OSWER program staff, the new CERCLIS 3 Module, when fully
          implemented, will include the report information specified by the Comprehensive
          Five-Year Review Guidance and make the regions’ annual reports unnecessary.

          Although the CERCLIS 3 Module has been under development since
          approximately 2002, it had not been fully implemented at the time of our review.
          OSWER staff expects the module to be fully implemented in Fiscal Year 2006.
          The new module, once fully tested and implemented, should provide the data to
          measure the effectiveness and impacts of EPA’s five-year program. For example,
          the module should enable the Agency to measure the timeliness of reviews,
          number of reviews with protectiveness issues, timeliness of implementing
          recommended corrective actions addressing protectiveness issues, and
          actual/potential results from implementing recommended corrective actions.




                                          18 

Recommendations

         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         4-1	   Fully implement the CERCLIS 3 Module, after testing and validation, for
                the five-year review program. Require the regions to comply with the
                annual reporting requirement specified in the Comprehensive Five-Year
                Review Guidance by populating the module with reporting data.

         4-2	   Use CERCLIS 3 Module data to measure the effectiveness and impacts of
                EPA’s five-year review program, such as measuring the timeliness of
                reviews, number of reviews with and without protectiveness issues,
                timeliness of implementing recommended corrective actions addressing
                protectiveness issues, and actual/potential results from implementing
                recommended corrective actions.

Agency Comments and OIG Evaluation
         EPA agreed with our recommendations and responded that the CERCLIS 3
         Module has been updated and the second generation module has been in
         production since June 2006. The Agency also said significant progress has been
         made entering data into the module for five-year reviews completed since Fiscal
         Year 2003, which allows OSWER to track issues, recommendations, and
         progress. The Agency described corrective actions intended to address the
         recommendations, but these actions did not completely address the
         recommendations. The Agency will need to provide more specific details on
         actions taken and/or planned, as well as specific milestones for completing the
         corrective actions, within 90 days.

         The Agency’s complete written response is in Appendix C. Our evaluation of
         those comments is in Appendix D.




                                        19 

                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                            BENEFITS (in $000s) 2

                                                                                                              Planned
Rec.   Page                                                                                                  Completion   Claimed     Agreed To
No.     No.                          Subject                          Status1         Action Official           Date      Amount       Amount

2-1     10    Expand the Agency’s scope of the quality                  O          Assistant Administrator
              assurance reviews conducted under the initiative                            OSWER
              Improve the Quality and Consistency of Five-Year
              Review Reports. At a minimum, conduct quality
              assurance reviews for a representative sample of
              reports from each region.

2-2     10    Revise the Comprehensive Five-Year Review                 O          Assistant Administrator
              Guidance to more clearly define short- and long-                            OSWER
              term protectiveness determinations. Also, revise
              the guidance to include specific requirements for
              conducting and documenting quality assurance
              reviews of five-year review reports, and maintain
              documentation to support the information in the
              reports.

2-3     10    Communicate to the regions the need for:                  O          Assistant Administrator
              (a) public notifications for the commencement                               OSWER
              and completion of five-year reviews; and
              (b) protectiveness conclusions that address
              each operable unit at a site.

3-1     15    To assess discrepancies or gaps in resources,             O          Assistant Administrator
              evaluate annual five-year review workloads and                              OSWER
              available resources as part of the annual planning
              process with the regions. Communicate to the
              regions that the U.S. Army Corps of Engineers or
              other contractor sources should be used for
              reviews where insufficient staffing or changes in
              remedial project managers will delay completion.

3-2     15    Work with region officials to correctly identify five     O          Assistant Administrator
              year review due dates and enter these dates into                            OSWER
              the new CERCLIS 3 Module.

3-3     15    After testing and validation of the CERCLIS 3             O          Assistant Administrator
              Module, monitor the status of five-year reviews and                         OSWER
              the recommended corrective actions established by
              completed reviews using the module and ensure
              they are completed by specified due dates.

4-1     19    Fully implement the CERCLIS 3 Module, after               O          Assistant Administrator
              testing and validation, for the five-year review                            OSWER
              program. Require the regions to comply with the
              annual reporting requirement specified in the
              Comprehensive Five-Year Review Guidance by
              populating the module with reporting data.




                                                                            20 

                                                                                                                                  POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                              BENEFITS (in $000s) 2

                                                                                                                      Planned
    Rec.     Page                                                                                                    Completion   Claimed     Agreed To
    No.       No.                           Subject                          Status1          Action Official           Date      Amount       Amount

    4-2       19     Use CERCLIS 3 Module data to measure the                   O          Assistant Administrator
                     effectiveness and impacts of EPA’s five-year                                 OSWER
                     review program, such as measuring the timeliness
                     of reviews, number of reviews with and without
                     protectiveness issues, timeliness of implementing
                     recommended corrective actions addressing
                     protectiveness issues, and actual/potential results
                     from implementing recommended corrective
                     actions.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress


2    Identification of potential monetary benefits was not an objective of this evaluation.




                                                                                    21 

                                                                                     Appendix A

                 Details on Scope and Methodology

We conducted our evaluation from November 2004 to May 2006 in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States. Our
scope generally covered EPA’s five-year review activities during the period from Fiscal Years
2002 through 2004. To gain an understanding of EPA’s Five-Year Review program, we
interviewed managers and program staff from OSWER and Regions 2, 3, 4, 5, and 9. We also
reviewed CERCLA, EPA’s Comprehensive Five-Year Review Guidance, and other program
documents and records applicable to EPA’s five-year review activities.

To assess management controls, we evaluated the Agency’s quality assurance procedures and
records for five-year reviews covering this three-year period. We found that the Agency needs to
enhance quality assurance activities to improve the quality, completeness, and timeliness of five-
year reviews.

We evaluated five-year review procedures for Regions 2, 3, 4, 5, and 9. We selected these
regions primarily because we sought to obtain geographical coverage for the eastern, central, and
western sections of the nation. We made site visits to these regions and reviewed documents and
records relevant to their five-year review activities. In addition, we interviewed managers and
staff from OSWER and Regions 2, 3, 4, 5, and 9 to answer all three of our objectives presented
below.

Our evaluation work took into account the findings of the prior reports noted in Chapter 1.

To evaluate how successful EPA has been at improving the quality and completeness of five-
year reviews, we selected a random sample of 39 five-year review reports out of the universe of
555 completed during Fiscal Years 2002 and 2004 (see Table A-1 on next page). The sample
included at least 1 report for each of the 10 regions. We evaluated the content of these reports to
determine whether the reports met EPA’s Comprehensive Five-Year Review Guidance and had
fully supported conclusions on remedy protectiveness. For the 28 reports from Regions 2, 3, 4,
5, and 9 in the sample, we also reviewed key site documents and data to verify the reports’
technical assessment information and protectiveness conclusions. The supporting documents
and data reviewed included Records of Decision, site sampling results, and site inspection
records.




                                                22 

Table A-1. Summary of Selected Details for Five-Year Review Reports in Random Sample
                                                                                                    Review
                                                  Date Listed     NPL       Review       Review    Completion   Review
Region                      Site                   on NPL        Status       Type      Sequence      Date       Lead
  1        Beacon Heights Landfill                 09/08/83       Final     Statutory     Third     09/19/03     EPA
           Plymouth Harbor/Cannon’s                09/08/83      Deleted     Policy       Third     09/26/03     EPA
           Engineering Corporation
   2       Higgins Farm                            06/24/88       Final      Policy       First     09/29/03     EPA
           Caldwell Trucking                       09/08/83       Final     Statutory     First     09/29/02     EPA
           Kin-Buc Landfill                        09/08/83       Final     Statutory    Second     09/30/04     EPA
           Vestal Water Supply Well 1-1            09/08/83       Final     Statutory    Second     09/30/03     EPA
           Chemical Insecticide Corporation        08/30/90       Final     Statutory    Second     12/29/03     EPA
           Old Bethpage Landfill                   09/08/83       Final     Statutory    Second     09/30/02     EPA
           Naval Weapons Station Earle             08/30/90       Final     Statutory     First     02/09/04    Federal
                                                                                                                Facility
   3       River Road Landfill                     10/04/89     Deleted     Statutory     First     09/30/04     EPA
           Chem-Solv                               08/30/90       Final      Policy       First     09/26/03     EPA
           Rhinehart Tire Fire                     06/10/86       Final     Statutory    Second     11/06/02     EPA
           Tyson’s Dump                            09/21/84       Final     Statutory    Second     09/27/04     EPA
           Harvey and Knott Drum Site              09/08/83       Final     Statutory     Third     09/30/03     EPA
           Eastern Diversified                     10/04/89       Final     Statutory    Second     02/12/03     EPA
           Woodbridge Research Facility           Not on NPL    Non NPL     Statutory     First     09/25/03    Federal
                                                                Federal                                         Facility/
                                                                 Facility                                       USACE
   4       Lewisburg Dump                          09/08/83     Deleted     Statutory    Second     09/11/02     EPA
           Beulah Landfill                         02/21/90     Deleted     Statutory    Second     09/25/03     EPA/
                                                                                                                USACE
           Geigy Chemical Corporation              10/04/89       Final      Policy       First     09/23/03     EPA/
                                                                                                                USACE
           Sangamo Weston/Twelve Mile Creek/       02/21/90       Final     Statutory     First     09/21/04     EPA
           Lake Hartwell Polychlorinated
           Biphenyls Contamination Site
           Harris Corporation (Palm Bay Plant)     07/22/87       Final     Statutory     First     02/03/04     EPA
           Fort. Hartford Coal Co. Stone Quarry    08/30/90       Final     Statutory     First     08/08/02     EPA/
                                                                                                                USACE
   5       Allied Chemical and Ironton Coke        09/08/83       Final     Statutory    Second     09/13/04     EPA
           Kummer Sanitary Landfill                06/10/86      Deleted    Statutory     First     03/13/03     State
           E.H. Schilling Landfill                 09/08/83       Final     Statutory    Second     09/02/02     EPA
           Eau Clair Municipal Well Field          09/21/84       Final     Statutory    Second     09/27/02     EPA
           Springfield Township Dump               09/08/83       Final     Statutory    Second     09/24/04     EPA
           Velsicol Chemical Corporation           09/08/83       Final      Policy      Second     09/25/02     EPA
   6       Fourth Street Abandoned Refinery        03/31/89       Final     Statutory    Second     07/29/02     EPA
           French Limited                          09/08/83      Deleted    Statutory    Second     03/12/02     EPA
   7       Oronogo-Duenweg Mining Belt Site        08/30/90       Final     Statutory     First     09/27/02     EPA
           Vogel Paint and Wax                     06/10/86       Final     Statutory    Second     09/24/04     State
           Aidex Corporation                       09/08/83      Deleted     Policy       Third     01/30/04     EPA
           Red Oak City Landfill                   03/31/89       Final     Statutory     First     09/10/02     EPA
   8       Mystery Bridge Road                     08/30/90       Final     Statutory    Second     09/27/04     EPA
           Whitewood Creek                         09/08/83      Deleted    Statutory     First     07/17/02     EPA
   9       Fairchild Semiconductor- Mountain       02/11/91       Final      Policy       First     09/30/04     EPA
           View Site
           TRW Microwave                           02/21/90       Final      Policy      Second     09/30/04     State
   10      Standard Steel                          08/30/90      Deleted    Statutory     First     04/23/03     EPA

NPL         National Priorities List
USACE       U.S. Army Corps of Engineers

Source: Five-year review data provided by OSWER




                                                                23
We also reviewed and evaluated tracking systems used by the five regions to monitor
implementation of recommendations included in five-year review reports. The review included a
review of available documents supporting the implementation status of recommendations
included in the 28 reports in our random sample. Additionally, we reviewed quality assurance
documents and records related to five-year reviews maintained by the five regions visited.

To evaluate how EPA identifies sites requiring five-year reviews and ensures that the reviews are
conducted timely, we tested EPA’s process for identifying sites subject to those reviews for
Fiscal Years 2002 through 2004. We obtained the universe of sites subject to five-year reviews
during these fiscal years from CERCLIS data provided by OSWER. We did not test EPA’s
management controls for CERCLIS. However, we did test the accuracy of the universe through
a comparison of the CERCLIS information with five-year review inventory information obtained
from the five regions. We assessed the accuracy of five-year review dates in CERCLIS by
comparing date information provided by the 39 reports in our sample with the review dates in
CERCLIS. We also obtained input on the accuracy of the CERCLIS data for selected reviews
from Agency managers and program staff. Additionally, we reviewed the CERCLIS data to
identify reviews exceeding the five-year period specified by CERCLA and EPA policy. We
classified reviews overdue by more than six months as being untimely. Our testing of the
CERCLIS data did not reveal any significant discrepancies in the universe of five-year reviews.
However, we found that some five-year review dates maintained in CERCLIS were inaccurate
and that inaccurate dates may have contributed to untimely five-year reviews. This issue is
discussed in Chapter 3.

To evaluate impacts of EPA’s five-year review process on the implementation and performance
at Superfund sites, we identified impacts of five-year review activities through an assessment of
the issues and recommendations in the 28 reports from Regions 2, 3, 4, 5, and 9 in our random
sample. We also reviewed available documents supporting the implementation status of
recommendations included in the reports.




                                                24 

                                                                                    Appendix B

       Details on Reports without Fully Supported or
          Complete Protectiveness Conclusions

Reports with Protectiveness Conclusions Not Fully Supported
Eight out of 39 reports in our random sample presented protectiveness conclusions that were not
fully supported. These reports either did not include enough information to support
protectiveness conclusions, or presented information that did not support the conclusions.

Plymouth Harbor/Cannon’s Engineering Corporation - Region 1

The report identified that the site’s perimeter fence must be reconstructed and maintained to
control access to the property. Although the report disclosed that inadequate access controls
were an issue impacting current protectiveness, the protectiveness conclusion stated that the
remedy at the site was currently protective of human health and the environment.

Higgins Farm - Region 2

The report’s technical assessment stated that wells outside the remedial system were showing
some degree of contamination and the remedy was not functioning exactly as intended. Also, a
U.S. Army Corps of Engineers’ optimization study for the site stated that "the offsite extent of
the contaminant plumes is unknown and there is a potential for impacts on ground water users …
the protectiveness of the ground water remedies is unknown.” Despite this information, the five-
year review concluded that the remedial actions were protective.

Chemical Insecticide Corporation - Region 2

The technical assessment for this report did not address all of the elements of the evaluation
framework prescribed by the Comprehensive Five-Year Review Guidance. Although the site
included three operable units, the five-year review was based primarily on a recent Record of
Decision for one operable unit under construction. Therefore, the protectiveness conclusion was
not based on an evaluation of data and information for all operable units at the site.

Tyson’s Dump - Region 3

The report’s technical assessment did not address all of the elements of the evaluation framework
prescribed by the Comprehensive Five-Year Review Guidance. The technical assessment and
document review sections of the report did not provide sampling data and other specific
information to support the evaluation and protectiveness conclusions.




                                               25 

Geigy Chemical Corporation (Aberdeen Plant) - Region 4

The report stated the site remedy was protective of human health and the environment.
However, the issues section disclosed that there was insufficient data to determine the impact of
an off-site trichloroethylene contamination plume on the remedy. Further, interview information
included in the report disclosed that an environmental engineer for the State of North Carolina’s
Department of Environment and Natural Resources had some concerns about the undefined
source of the trichloroethylene contamination plume and its potential effects on the remedy.
Therefore, information in the report noting a concern about the future protectiveness of the
remedy appeared to contradict the protectiveness conclusion.

E.H. Schilling Landfill - Region 5

The report concluded that the remedy was functioning as intended and protective of human
health and the environment. However, the report identified erosion around the face of the dam
onsite as a significant issue with the remedy. The report stated: "it was noted during the site visit
that the erosion on the face of the dam was a serious issue that would potentially undermine the
stability of the Recovery Well… and ultimately the dam itself.” While this issue did not directly
impact human exposure to contaminants at the site, the report disclosed that it affected both the
current and future protectiveness of the remedial action. Therefore, this issue appeared to
contradict the report’s protectiveness conclusion.

Fourth Street Abandoned Refinery - Region 6

The report’s protectiveness conclusion included a statement that monitoring data suggested that
the remedy was functioning as required and achieving ground water cleanup goals. However,
the report also disclosed that site contaminants were present above action levels, and that data
from current well locations may not provide sufficient information to assess the influence of off-
site contaminant sources, horizontal migration of site-related contaminants, or natural attenuation
of contaminants. This information appeared to contradict the protectiveness conclusion.

Mystery Bridge Road - Region 8

The protectiveness statement concluded that the remedy was protective of human health and the
environment because the contaminated ground water at the site was not used by residents.
However, the report’s technical assessment found that benzene concentrations in the ground
water were a concern because they spiked up to 90 times the maximum contaminant levels
during the first two years of the five-year review period. Further, the report disclosed that
institutional controls prohibiting the use of ground water from the site were not in place even
though they were required by the Record of Decision. Therefore, data and information presented
in the report appeared to contradict the protectiveness conclusion.




                                                 26 

Reports with Incomplete Protectiveness Conclusions
Eight out of 39 reports in our random sample had incomplete protectiveness conclusions. We
considered the conclusions incomplete because they did not cover all operable units at the site
and/or address both the short- and long-term protectiveness of the remedial actions.

Old Bethpage Landfill - Region 2

The report’s protectiveness conclusion was incomplete because it did not address both short- and
long-term protectiveness of the remedy, despite identifying that a lack of institutional controls
potentially affected the long-term protectiveness of the remedy. Because the report identified an
issue affecting future protectiveness, the protectiveness conclusion should have addressed the
lack of institutional controls and presented a statement for an operating remedy that was
protective in the short term.

Vestal Water Supply Well 1-1 - Region 2

The protectiveness conclusion for this report addressed the protectiveness of the remedies for the
next five years, but did not address long-term protectiveness. The report’s technical assessment
identified that further evaluation of the soil vapor intrusion pathway was necessary. Given the
recommendation for further evaluation of this pathway, future protectiveness of the remedies
should have been addressed by the report’s conclusion. Also, the report provided a site-wide
protectiveness conclusion without addressing the protectiveness of each of the site’s two
operable units.

Kin-Buc Landfill - Region 2

Although the site has multiple operable units in the construction complete phase, the report
provided a site-wide protectiveness conclusion without addressing the protectiveness of each
operable unit. Further, the report presented a protectiveness conclusion covering the next five-
year period but did not specifically address long-term protectiveness of the remedy.

Sangamo Weston/Twelve Mile Creek/Lake Hartwell Polychlorinated Biphenyls
Contamination Site - Region 4

The protectiveness conclusion for this report only addressed one of the two operable units at the
site. The five-year review did not address the remedy for Operable Unit 1 as part of the technical
assessment even though this unit was the source for the contamination in Operable Unit 2.

Velsicol Chemical Corporation - Region 5

The protectiveness conclusion for this report only addressed one of the two operable units at the
site. Since both operable units have remedies either in place or under construction, the report
should have addressed the protectiveness of the remedies for both operable units.




                                                27 

Allied Chemical and Ironton Coke - Region 5

A protectiveness conclusion for each of the three operable units at this site was not presented in
the report. The report only provided a site-wide protectiveness conclusion.

Kummer Sanitary Landfill - Region 5

The report only provided a site-wide protectiveness conclusion. A protectiveness conclusion for
each of the three operable units at this site was not presented in the report.

French Limited - Region 6

The conclusion for this report did not address future protectiveness of the remedy. The
conclusion covered both the source control and ground water remedies and generally addressed
short-term protectiveness. However, results discussed in the report, such as ground water units
not meeting compliance criteria and unsuccessful measures to direct the onsite ground water
gradient, were not identified in the protectiveness conclusion as issues that could potentially
impact the long-term protectiveness of the remedy.




                                                28 

                                                                                   Appendix C

                  Agency Response to Draft Report
September 21, 2006


MEMORANDUM

SUBJECT:      OSWER Response to the Office of Inspector General draft report “EPA Has
              Improved Five-Year Review Process for Superfund Remedies, But Further Steps
              Needed”

FROM:         Susan Parker Bodine/s/
              Assistant Administrator

TO:           Bill A. Roderick
              Acting Inspector General

       Thank you for the opportunity to review and respond to the Office of Inspector
General’s (OIG) Draft Evaluation Report entitled “EPA Has Improved Five-Year Review
Process for Superfund Remedies, But Further Steps Needed.” We also appreciate the meetings
with your staff to discuss your findings prior to issuance of the draft report.

        We agree that since the last review in 1999, EPA has taken actions to improve the five-
year review (FYR) process. We issued the Comprehensive Five-Year Review Guidance,
conducted training in all ten Regional offices and at NARPM meetings, significantly reduced the
backlog of FYRs, and pursued the development and implementation of a tracking system for
FYRs within the CERCLIS 3 application.

        We developed a comprehensive Five-Year Review web page
(http://www.epa.gov/superfund/action/postconstruction/5yr.htm) which includes the
“Comprehensive Five-Year Review Guidance;” an internet-based application that allows the
public to search for Five-Year Reviews by state, site name, EPA ID, Region, keyword, or fiscal
year; community involvement fact sheets; and “Questions and Answers” related to FYRs.

        We currently have a program review effort focused on documenting Regional processes
for managing FYRs and implementing recommendations. The program review will summarize
Regional management practices for tracking and conducting FYRs, implementation of FYR
recommendations, and the usefulness of FYR guidance and training. In addition, the program
review seeks to better understand Regional support needs and facilitate the sharing of FYR best
practices nationwide. This program review is scheduled to be completed by the end of FY 2007.

        We also are taking steps to better support and communicate review findings, improve
review timeliness, and provide greater assurance that cleanup actions are protective of human
health and the environment.


                                               29 

           Our attached response includes comments on the findings, agreement/disagreement with
   the recommendations, a summary of our recent accomplishments and planned corrective actions,
   and an action plan for implementing the recommendations. For the sites identified in Appendix
   B, we provide clarifying language submitted by the Regions for selected sites that may alter the
   percentages in the OIG’s final report.

          If you have any questions regarding this response, please contact Rafael Gonzalez at
   (703) 603-8892.

Attachment




                                                  30 

                                EPA Response to OIG Recommendations

Recommendation 2-1

         Expand the Agency’s scope of the quality assurance reviews conducted under the
initiative Improve the Quality and Consistency of Five-Year Review Reports. At a minimum,
conduct quality assurance reviews for a representative sample of reports from each region.

                                                                                        See Appendix D
                                                                                        Note 1
EPA Response

        We agree with the recommendation. As part of the initiative to “Improve the Quality and
Consistency of Five-Year Reviews,” we initially reviewed a representative sample of draft five-
year reviews from the Regions. We have continued to expand the effort and recently have
reviewed approximately half of all five-year reviews planned or due during the fiscal year. We
will continue to increase the number of draft five-year reviews evaluated under the initiative to
ensure compliance with the guidance and improve supporting information in the reports. We
agree that increased review by Headquarters improves the quality and consistency of reports.

Recommendation 2-2

       Revise the Comprehensive Five-Year Review Guidance to more clearly define short- and
long-term protectiveness determinations. Also revise the guidance to include specific
requirements for conducting and documenting quality assurance reviews of five-year review
reports, and maintain documentation to support the information in the reports. These
requirements should emphasize the need for:

       a) Information that provides complete support for conclusions on remedy protectiveness. 

       b) Information supporting recommendations, including milestones, oversight agency, and 

       responsible party. 

       c) Documentation of supporting report information and quality assurance results. 

       d) Explanations for excluding interviews of site personnel, regulatory officials, and local 

       residents from the five-year reviews. 

       e) Regional quality assurance programs for five-year reviews that ensure the reviews are 

       complete and fully supported, including site inspections. 


                                                                                        See Appendix D
                                                                                        Note 2
EPA Response

      We do not agree with the recommendation because we have several efforts currently
underway that accomplish the same result.




                                                   31 

       a/b) We are aggressively pursuing a refresher FYR training effort with the Regions, we
       have increased the number of draft FYR reports that we review, and have engaged in
       discussions with Regional managers to increase awareness of the need to have
       protectiveness determinations fully supported in the reviews.
       c) We agree that Regions should maintain documentation of support activities (i.e., site
       inspections and interviews) to verify these activities occurred. However, we do not agree
       that these need to be included in the FYR document.
       d) We disagree that the Regions should explain in the FYR document why interviews are
       omitted from the process. Interviews are not required by the guidance but are suggested
       as one of many community involvement activities to solicit feedback on the remedies
       being reviewed.
       e) During the last 18 months or so we have worked with the Regions to ensure all FYR
       documents were being reviewed for quality and completeness. We found that each
       Region has a document review process in place utilizing a variety of expertise from
       senior project managers, policy advisors, attorneys, risk assessors, community
       involvement coordinators, section chiefs, branch chiefs, and five-year review
       coordinators. Regions also routinely solicit feedback from State counterparts and other
       stakeholders.

Recommendation 2-3

       Communicate to the regions the need for: (a) public notifications for the commencement
and completion of five-year reviews; and (b) protectiveness conclusions that address each
operable unit at a site.
                                                                               See Appendix D
                                                                               Note 3

EPA Response

        We agree with the recommendation. We recently met with Regional community
involvement staff and managers and shared with them the list of planned and due FYRs for FY
2006 and FY 2007 to increase awareness and ensure that appropriate community involvement
activities are conducted. In addition, in our training and Headquarters review, we are
emphasizing that each operable unit should have a protectiveness conclusion.

Recommendation 3-1

       To assess discrepancies or gaps in resources, evaluate annual five-year review
workloads and available resources as part of the annual planning process with the regions.
Communicate to the regions that the U.S. Army Corps of Engineers or other contractor sources
should be used for reviews where insufficient staffing will delay completion.

                                                                               See Appendix D
                                                                               Note 4




                                              32 

EPA Response

        We agree with the recommendation. For the last few years we have included this
discussion in our annual work planning process with the Regions. Each Region is provided a list
of FYRs for the upcoming fiscal year and expected due dates. We review their requests for
contractor funding, U.S. Army Corps of Engineers support, cooperative agreements with states,
or whether they will conduct FYRs “in-house.” We provide priority funding for FYRs to ensure
they are completed on time.

Recommendation 3-2

         Require regions to establish contingency plans that help ensure that five-year reviews
meet due dates when there are changes in remedial project managers. The plans should ensure
all site data/information is timely transferred to newly assigned remedial project managers.

                                                                                  See Appendix D
                                                                                  Note 5

EPA Response

        We do not agree with the recommendation. We do not believe this activity is significant
enough to require the development of a contingency plan. By providing an annual list of FYRs
due to the Regions, managers can plan for any foreseen transition of remedial project managers.

Recommendation 3-3

        Work with region officials to correctly identify five-year review due dates and enter these
dates into the new CERCLIS 3 Module.
                                                                                  See Appendix D
                                                                                  Note 6

EPA Response

        We agree with the recommendation. We have aggressively undertaken a data quality
effort to ensure CERCLIS 3 reflects correct due dates for all planned FYRs. During the work
planning sessions for FY 2007, Regions were also given a list of FYRs due over the next three
years to verify due dates. For NPL Federal Facility reviews, we have sent letters to all Federal
Agencies indicating when FYRs are due and have asked our Federal Facility Managers to review
FYR information with their Federal Agency field personnel.




                                                33 

Recommendation 3-4

       After testing and validation of the CERCLIS 3 Module, monitor the status of five-year
reviews and the recommended corrective actions established by completed reviews using the
module and ensure they are completed by specified due dates.

                                                                               See Appendix D
                                                                               Note 7
Recommendation 4-1

        Fully implement the CERCLIS 3 Module, after testing and validation, for the five-year
review program. Require the regions to comply with the annual reporting requirement specified
in the Comprehensive Five-Year Review Guidance by populating the module with reporting data.

                                                                               See Appendix D
                                                                               Note 8

Recommendation 4-2

       Use CERCLIS 3 Module data to measure the effectiveness and impacts of EPA’s five-
year review program, such as measuring the timeliness of reviews, number of reviews with and
without protectiveness issues, timeliness of implementing recommended corrective actions
addressing protectiveness issues, and actual/potential results from implementing recommended
corrective actions.
                                                                               See Appendix D
                                                                               Note 9

EPA Response

        We agree with the recommendations 3-4, 4-1 and 4-2. The FYR CERCLIS 3 Module has
been updated, and the second generation module has been in production since June 2006.
Headquarters met with Regional Branch Chiefs to discuss issues related to FYRs, specifically the
need to promptly input issues and recommendations identified in the reports into CERCLIS 3.
Regional Branch Chiefs also agreed to review and verify progress for recommendations that
affect protectiveness at least twice a year.

        The Regions are required to enter completion dates, issues and recommendations, and
protectiveness statements into CERCLIS 3 in lieu of the annual reporting requirements specified
in the guidance.

        Significant progress has been made entering data into the FYR CERCLIS 3 Module for
FYRs completed since FY 2003. This allows us to generate reports that track issues and
recommendations and the progress toward implementing them. Some of these reports have been
made available to the Regions so they can closely monitor the status of recommendations,
particularly those that impact protectiveness.




                                              34 

                                   Status of Recommendations and
                                     Potential Monetary Benefits
                                                                                                                         POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                             Planned
Rec.   Page                                                                                                 Completion   Claimed    Agreed To
No.     No.                          Subject                          Status1        Action Official           Date      Amount      Amount

2-1     10    Expand the Agency’s scope of the quality                            Assistant Administrator    Ongoing       N/A
              assurance reviews conducted under the initiative                           OSWER
              Improve the Quality and Consistency of Five-Year
              Review Reports. At a minimum, conduct quality
              assurance reviews for a representative sample of
              reports from each region

2-2     10    Revise the Comprehensive Five-Year Review                           Assistant Administrator      N/A         N/A
              Guidance to more clearly define short- and long-                           OSWER
              term protectiveness determinations. Also revise
              the guidance to include specific requirements for
              conducting and documenting quality assurance
              reviews of five-year review reports, and maintain
              documentation to support the information in the
              reports

2-3     11    Communicate to the regions the need for: (a) public                 Assistant Administrator    Ongoing       N/A
              notifications for the commencement and                                     OSWER
              completion of five-year reviews; and
              (b) protectiveness conclusions that address each
              operable unit at a site

3-1     15    To assess discrepancies or gaps in resources,                       Assistant Administrator    Ongoing       N/A
              evaluate annual five-year review workloads and                             OSWER
              available resources as part of the annual planning
              process with the regions. Communicate to the
              Regions that the U.S. Army Corps of Engineers or
              other contractor sources should be used for
              reviews where insufficient staffing will delay
              completion

3-2     15    Require regions to establish contingency plans that                 Assistant Administrator      N/A         N/A
              help ensure that five-year reviews meet due dates                          OSWER
              when there are changes in remedial project
              managers. The plans should ensure all site
              data/information is timely transferred to newly
              assigned remedial project managers

3-3     15    Work with region officials to correctly identify five               Assistant Administrator    Ongoing       N/A
              year review due dates and enter these dates into                           OSWER
              the new CERCLIS 3 Module

3-4     15    After testing and validation of the CERCLIS 3                       Assistant Administrator    Ongoing       N/A
              Module, monitor the status of the five-year reviews                        OSWER
              and the recommended corrective actions
              established by completed reviews using the
              module and ensure they are completed by
              specified due dates.

4-1     18    Fully implement the CERCLIS 3 Module, after                         Assistant Administrator    Ongoing       N/A
              testing and validation, for the five-year review                           OSWER
              program. Require the regions to comply with the
              annual reporting requirement specified in the
              Comprehensive Five-Year Review Guidance by
              populating the module with reporting data




                                                                           35 

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.     Page                                                                                              Completion   Claimed    Agreed To
    No.       No.                         Subject                        Status1        Action Official           Date      Amount      Amount

     4-2      18 	 Use CERCLIS 3 Module data to measure the                          Assistant Administrator    Ongoing       N/A
                   effectiveness and impacts of EPA’s five-year                             OSWER
                   review program, such as measuring the timeliness
                   of reviews, number of reviews with and without
                   protectiveness issues, timeliness of implementing
                   recommended corrective actions addressing
                   protectiveness issues, and actual/potential results
                   from implementing recommended corrective
                   actions


1
    O = recommendation is open with agreed-to corrective actions pending;

    C = recommendation is closed with all agreed-to actions completed;

    U = recommendation is undecided with resolution efforts in progress 





                                                                              36 

Appendix B – Reports Without Fully Supported or Complete Protectiveness Conclusions

Plymouth Harbor - Region 1

OIG Finding: The report identified inadequate access controls as an issue impacting current
protectiveness. The report identified that the site’s perimeter fence must be reconstructed and
maintained to control access to the property. The report further stated that there was inadequate
data to determine the risk at the site. Because the access controls to the site are not functioning,
and there is inadequate data to calculate risk for the site, there is uncertainty in determining the
current protectiveness of the remedy. However, the protectiveness statement in the report stated
that the remedy at the site is currently protective of human health and the environment.

                                                                                  See Appendix D
                                                                                  Note 10


EPA Response: Although inadequate access controls is an issue that may impact protectiveness,
the extent of the problem was not significant enough to affect the protectiveness determination at
the time of the review. Most of the site was enclosed with proper access controls except for the
northern portion which was only accessible by boat. Since then, the northern portion has been
closed off. Also, the 5YR pointed out that the risk assessment was conservative using the
highest cPAH data available which overstated the estimated risk. This conservative approach
should be re-evaluated because it may impede future development.

Tyson’s Dump - Region 3

OIG Finding: The report’s technical assessment did not address all of the elements of the
evaluation framework prescribed by the Comprehensive Five-Year Review Guidance. The
technical assessment and document review sections of the report did not provide sampling data
and other specific information to support the evaluation and protectiveness conclusions.

                                                                                  See Appendix D
                                                                                  Note 11

EPA Response: The sampling data supporting the conclusions are referenced on page 16 which
states, "The results of the 2003 Site-Wide Monitoring Program (SWMP) demonstrate that
groundwater pump and treat as a remedy for the deep aquifer is working..." Page 17 discusses
this conclusion which includes reductions in contamination over a seven year period, decreasing
trends of site-related contamination, and quarterly monitoring results from the adjacent river
which show it is "free of site-related compounds".

Geigy Chemical Corp. (Aberdeen Plant) - Region 4

OIG Finding: The report stated the site remedy was protective of human health and the
environment. However, the technical assessment section disclosed that there was insufficient
data to determine the impact of an off-site trichloroethylene contamination plume on the remedy.
Further, interview information included in the report disclosed that a representative of the



                                                37 

primary responsible party for the site said increased trichloroethylene levels could require
changes to the remedial design for the site. Therefore, information in the report noting a
concern about the future protectiveness of the remedy appeared to contradict the protectiveness
conclusion.
                                                                                   See Appendix D
                                                                                   Note 12


EPA Response: The remedy design changes for addressing TCE referenced in the document
relate to using larger activated carbon filters or potentially adding air strippers. Remedies often
undergo design modifications, and we do not believe that the potential modification requires a
non-protective conclusion.

Sangamo Weston/Twelve Mile Creek/Lake Hartwell Polychlorinated Biphenyls
Contamination Site - Region 4

OIG Finding: The report concluded that the remedy for the site’s Operable Unit 2 was
adequately protective of human health and the environment, and prescribed long-term
monitoring at the site to assure future protectiveness. However, data and information presented
in the report and supporting documents indicated the remedy was not completely functioning as
intended. Information and data in the report and supporting documents identified that fish
contamination levels for some species had not changed, indicating that the remedy for the site’s
Operable Unit 1 was not completely addressing the source of contamination for Operable Unit
2. Also, the five-year review and report did not address the remedy for Operable Unit 1 as part
of the technical assessment, even though this unit was the source for the contamination in
Operable Unit 2.

                                                                                   See Appendix D
                                                                                   Note 13


EPA Response: The remedy at Operable Unit 2 focuses on human health consumption of
contaminated fish and monitored natural recovery of sediments. As part of the five-year review,
EPA conducted surveys and collected blood samples for PCBs from nearby residents. Results of
the surveys showed that the fish advisories and public outreach programs were working. Also,
results from the blood tests showed that participants had blood levels at or below the mean of the
U.S. population. The report also clearly indicated that sediment PCB levels are decreasing
through monitored natural recovery. A five-year review was conducted for Operable Unit 1 in
FY 2005 and was not intended to be included in the FY 2004 review.

4th Street Abandoned Refinery - Region 6

OIG Finding: The report concluded that the remedy was expected to be protective upon
completion, and in the interim all exposure pathways were being controlled. According to the
report, monitoring data suggested that the remedy was functioning as required and achieving
ground water cleanup goals. However, the report also disclosed that data from current well
locations did not provide sufficient information to assess the influence of off-site contaminant



                                                 38 

sources, horizontal migration of site-related contaminants, or natural attenuation of
contaminants. The report indicated that a lack of data to assess those issues was grounds for
considering the remedy to be failing. This information appeared to contradict the report’s
statement that the remedy was functioning as required.
                                                                                See Appendix D
                                                                                Note 14



EPA Response: The report identifies potential factors that may assist in the evaluation of the
remedy as it operates. The Region and the State considered these observations as areas of
concern and integrated them into an on-going monitoring program to ensure the remedy is
working as intended. The statements do not imply that the remedy is not working.

              Appendix B – Reports With Incomplete Protectiveness Conclusions

Beulah Landfill - Region 4

OIG Finding: The report’s protectiveness conclusion did not address the actions needed to
ensure the future protectiveness of the remedy. The report stated that the ground water at the
site was not in compliance with Florida’s drinking and surface water standards, which was
necessary to satisfy the closure requirements for the site specified in the Record of Decision.
According to the report, the State was working on a remedial action plan to address this issue.
However, the protectiveness conclusion did not discuss what actions are necessary to remediate
any ground water that poses a threat to surface waters, and ensure future protectiveness for
human health and the environment.
                                                                                See Appendix D
                                                                                Note 15


EPA Response: The recommendation to develop a remedial action plan is sufficient to meet the
five-year review requirement. The protectiveness conclusion did not include the specific actions
necessary to address the issue because the appropriate response action plan was being developed
by the State and the PRP at the time of the review.




                                               39 

                                                                                 Appendix D

            OIG Evaluation of Agency Response

Note 1 -	   The Agency’s corrective actions appear to adequately address the
            recommendation. However, the Agency will need to be more specific on the
            scope of quality assurance reviews for Fiscal Years 2007 and later in its
            response to the final report.

Note 2 -	   The Agency’s comments describe actions taken and planned that appear to
            generally address parts 2-2(a) and 2-2(b). However, the Agency will need to
            provide additional details in its response to the final report that explain how the
            refresher training, the increase in the number of draft five-year review reports
            reviewed by OSWER, and discussions with the regions will improve the report
            information supporting protectiveness conclusions and recommendations.

            Regarding the Agency’s comments for part 2-2(c), we are encouraged that the
            Agency agrees that the regions should maintain documentation supporting
            interviews. We agree that the documentation does not need to be included in
            five-year review reports. The Agency will need to include specific corrective
            actions taken and/or planned to address this part of the recommendation,
            including documentation supporting public notifications and quality assurance
            reviews, in its response to the final report.

            We agree with the Agency’s comments on part 2-2 (d). We removed the
            “Reviews Did Not Include Important Verification Activities” section in
            Chapter 2 as well as the applicable recommendation from the report.

            We are encouraged by the Agency’s comments for part 2-2 (e). This corrective
            action appears to meet the intent of our recommendation. However, the Agency
            will need to provide more specific details about its work with the regions to
            improve the regions’ quality assurance reviews in its response to the final
            report. As discussed in our report, the regions’ quality assurance reviews had
            not been effective in ensuring the quality and completeness of five-year reviews
            as of the end of Fiscal Year 2004. The Agency will also need to include
            milestones for completing the corrective actions for each part of
            Recommendation 2-2 in the response to the final report.




                                            40 

Note 3 -	   We agree with the actions taken and planned by the Agency. EPA will need to
            include specific milestones for completing these actions in its response to the
            final report.

Note 4 -	   The Agency’s agreement with the recommendation is encouraging. We
            acknowledge that OSWER has discussed five-year workloads with the regions
            during annual planning meetings. However, large workloads for remedial
            project managers and a turnover of those managers for some sites were primary
            contributors to untimely five-year review reports. Therefore, OSWER’s current
            planning process has not been completely effective in assuring that sufficient
            resources are allocated to five-year reviews. In its response to the final report,
            the Agency will need to describe the actions taken or planned during the annual
            planning process to better ensure the regions have sufficient resources to timely
            complete five-year reviews. OSWER will also need to include specific
            milestones for completing these actions.

Note 5 -	   We agree that Agency managers can plan for any foreseen transition of remedial
            project managers, and have removed the recommendation from the report.
            Recommendation 3-1 addresses the Agency’s annual five-year review planning
            process. Therefore, we have modified Recommendation 3-1 by recommending
            the use of contractor resources for reviews when changes in remedial project
            managers will delay completion.

Note 6 -	   We are encouraged by actions taken and underway by the Agency. To
            completely address the recommendation, EPA will need to describe the data
            quality assurance efforts taken to correct due dates in the CERCLIS 3 Module
            prior to Fiscal Year 2007 in its response to the final report. The Agency will
            also need to include in its response specific milestones for completing actions
            taken and underway.

Note 7-	    We are encouraged that the Agency agrees with the recommendation and the
            regions have agreed to review and verify progress for recommendations
            addressing protectiveness issues twice a year. However, the Agency’s
            comments do not describe actions taken and/or planned by OSWER to monitor
            timely completion of five-year reviews and implementation of
            recommendations established by five-year reviews. The Agency will need to
            provide additional details on action taken and/or planned to address the
            recommendation as well as a milestone for completing each action in its
            response to the final report.

Note 8-	    Although the Agency agrees with the recommendation, its comments do not
            disclose whether the regions are required to populate the CERCLIS 3 Module
            with all the reporting data specified in the Comprehensive Five-Year Review
            Guidance. For example, the Agency does not identify whether report data
            specified by the guidance, such as implementation schedules for recommended
            corrective actions, are required to be populated in CERCLIS 3. The Agency



                                           41 

             will need to provide additional details on actions taken and/or planned to
             address the recommendation as well as a milestone for completing each action
             in its response to the final report.

Note 9-	     The Agency’s agreement with the recommendation is promising. We are also
             encouraged that the Agency has made significant progress in entering data into
             the CERCLIS 3 Module, which allows EPA to generate reports that track issues,
             recommendations, and progress. However, the Agency’s comments do not
             indicate whether specific data in CERCLIS 3 will be used to measure the
             effectiveness and impacts of the five-year review program. Therefore, EPA will
             need to provide more specific details on corrective actions taken and/or planned
             as well as milestones for completing the actions in its response to the final
             report.

Note 10-	    The report specifically identifies the inadequate access controls as an issue that
             impacts the current and future protectiveness of the site, yet the report provides
             a protectiveness statement that cites the site is currently protective. We agree
             with the Agency’s comments on the risk assessment after further review of the
             five-year review report, and we made appropriate revisions to the paragraph.

Note 11 -	   The data review section on pages 16 and 17 of the five-year review report
             provide only general conclusions taken directly from page 12 of the 2003
             Annual Monitoring Report for the Tyson Superfund Site. The report does not
             provide any sampling results or any further details to support the evaluation and
             protectiveness conclusions. Further, the document review section of the five-
             year review report does not cite any monitoring or sampling reports that cover
             the five-year review period.

Note 12 -	   The five-year review report states that increasing trichloroethylene
             contamination levels have shortened the life of carbon absorption canisters in
             the treatment facility; however, the long-term effects of this change on the
             remedy is unknown. Groundwater treatment at the site is achieved by removal
             of the contaminants of concern through these carbon absorption canisters.
             Therefore, the carbon absorption canisters are critical components of the
             groundwater remedy. Given the lack of certainty regarding the impact of
             trichloroethylene contamination on the remedy’s effectiveness, it is unclear
             from the details presented in the five-year review report how the protectiveness
             conclusion was reached. We made revisions to the paragraph for clarity.

Note 13 -	   We agree that the protectiveness conclusion for Operable Unit 2 was adequately
             supported based on the Agency’s comments and further review of the five-year
             review report. However, the five-year review report provides a site-wide
             protectiveness conclusion without addressing Operable Unit 1 in the technical
             assessment section. Therefore, we reclassified the report’s protectiveness
             conclusion from “not fully supported” to “incomplete.” We made appropriate
             revisions to Chapter 2 and Appendix B.



                                            42 

Note 14 -	   We agree that the five-year review report identifies early indicators of potential
             remedy failure in the technical assessment that assist in the evaluation of the
             remedy. The five-year review report identifies that site contaminants were
             present above action levels, and that data from current well locations may not
             provide sufficient information to assess the influence of off-site contaminant
             sources, horizontal migration of site-related contaminants, or natural attenuation
             of contaminants. This information appears to contradict a statement in the
             protectiveness conclusion disclosing that the remedy was functioning as
             intended and was achieving ground water cleanup goals. We modified the
             paragraph for clarity.

Note 15 -	   We agree with the Agency after further review of the five-year review report.
             We made appropriate revisions to Chapter 2 and removed the paragraph in
             question from Appendix B.




                                            43 

                                                                            Appendix E

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                            44 

